APPENDIX A

United States v. Juarez,
(5th Cir. Sept. 25, 2020)

Case: 20-50148

Document: 00515579598

Page: 1

Date Filed: 09/25/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
September 25, 2020

No. 20-50148
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Fernando Juarez, also known as Fernando Perez-Juarez,
Defendant—Appellant.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 4:19-CR-429-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Fernando Juarez pleaded guilty to one count of importing marijuana
in violation of 21 U.S.C. §§ 952 and 960 and a second count of possessing
marijuana with the intent to distribute in violation of 21 U.S.C. §§ 841(a)(1)
and (b)(1)(C). Juarez was sentenced to two concurrent terms of 33 months

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-50148

Document: 00515579598

Page: 2

Date Filed: 09/25/2020

No. 20-50148

of imprisonment and three years of supervised release. This sentence was
within the applicable guidelines range, which was correctly calculated at 27
to 33 months.
Juarez appealed the sentence, and he argues that the imposed
sentence was substantially unreasonable because it was greater than
necessary to achieve the sentencing purposes set out in 18 U.S.C. § 3553(a).
A sentence within the Guidelines range is entitled to a presumption of
reasonableness. United States v. Mondragon-Santiago, 564 F.3d 357, 360 (5th
Cir. 2009) (citing United States v. Campos-Maldonado, 531 F.3d 337, 338 (5th
Cir. 2008)). When conducting this reasonableness analysis, the court infers
that the district judge has considered all the factors for a fair sentence set
forth in the Guidelines. United States v. Cooks, 589 F.3d 173, 186 (5th Cir.
2009). The presumption of reasonableness “is rebutted only upon a showing
that the sentence does not account for a factor that should receive significant
weight, it gives significant weight to an irrelevant or improper factor, or it
represents a clear error of judgment in balancing sentencing factors.” Id.
Juarez fails to rebut the presumption of correctness. See id. The
district court heard the parties’ arguments and evidently agreed with the
Government that a sentence of 33 months was appropriate for the purpose of
deterrence, a factor listed in § 3553(a). Juarez fails to make the requisite
showing that the sentence is substantially unreasonable. Accordingly, the
judgment of the district court is AFFIRMED.

2

